                              SENSITIVE BUT UNCLASSIFIED




                 (U) UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                            (U) OFFICE OF INSPECTOR GENERAL


(U) AUD-MERO-13-20                               Office of Audits                                       March 2013




   (U) Evaluation of Emergency Action Plans
         for U.S. Mission Afghanistan




(U) IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General




                                        (U) PREFACE


     (U) This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     (U) This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      (U) The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     (U) I express my appreciation to all of those who contributed to the preparation of this
report.




                                         (U) Harold W. Geisel
                                         (U) Deputy Inspector General




                              SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


______________________________________________________________________________
(U) Acronyms
(U)   COM        Chief of Mission
(U)   DS         Bureau of Diplomatic Security
(U)   EAC        Emergency Action Committee
(U)   EAP        Emergency Action Plan
(U)   FAH        Foreign Affairs Handbook
(U)   ISAF       International Security Assistance Force
(U)   MOU        memorandum of understanding
(U)   OIG        Office of Inspector General
(U)   PRT        Provincial Reconstruction Team
(U)   RSO        Regional Security Office




                        SENSITIVE BUT UNCLASSIFIED
                                           SENSITIVE BUT UNCLASSIFIED


                                                   (U) Table of Contents
Section                                                                                                                                 Page

(U) Executive Summary ................................................................................................................. 1 
(U) Background .............................................................................................................................. 3 
(U) Evaluation Objective ................................................................................................................ 5
(U) Evaluation Results .................................................................................................................... 6 
           (SBU) Finding A. Embassy Kabul Emergency Action Plan Annexes Were Approved,
                         but Certain Resources Were Not Available To Respond Effectively to
                         Annex D and E Emergencies..................................................................... 6
           (SBU) Finding B. U.S. Consulate and Provincial Reconstruction Team Lacked
                         Emergency Plans ..................................................................................... 17
(U) List of Recommendations....................................................................................................... 20 
(U) Appendices 
           (U) A. Scope and Methodology ....................................................................................... 22 
           (U) B. Contents of Embassy Kabul Emergency Action Plan .......................................... 24
           (U) C. Embassy Kabul Response ..................................................................................... 25
(U) Major Contributors to This Report ......................................................................................... 31 




                                           SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED



                                        (U) Executive Summary
        (SBU) The Foreign Affairs Handbook1 (FAH) requires U.S. embassies throughout the
world to maintain an Emergency Action Plan (EAP) that provides procedures to respond to
emergency situations such as bombs, fires, civil disorder, and evacuations. The Department of
State (Department), Office of Inspector General (OIG), conducted this evaluation to determine
whether U.S. Mission Afghanistan personnel were aware of the emergency procedures contained
in the EAP, sufficient resources were available to respond to the emergencies addressed in
selected EAP annexes, and the EAP was up to date and included all personnel under Chief of
Mission (COM) authority. The scope of the evaluation was limited to five EAP annexes and
supporting appendices.

        (SBU) OIG determined that the five annexes (C,“Civil Disorder;” D,“Internal Defense;”
E, “Destruction of Sensitive Material;” G,“Hostage Taking;” and K,“Drawdown and
Evacuation”) were approved by the Bureau of Diplomatic Security (DS) in May 2011 and that
Embassy Kabul had made personnel aware of the EAP and had held the required EAP drills.
However, Embassy Kabul’s Emergency Action Committee2 (EAC) had not ensured that the EAP
was appropriately updated and that certain resources, including adequate emergency shelters,
food and water rations, communications equipment, and medical supplies were available to
effectively respond to Annex D emergencies. Further, the embassy lacked the capacity to fight
fires that might result from Annex D emergencies and lacked an agreement with non-Department
law enforcement agencies on their roles and responsibilities in responding to emergencies. In
addition, Embassy Kabul had not compiled a comprehensive list of all sensitive materials that
should be destroyed in the event of an emergency, as required by EAP Annex E. Lastly, OIG
determined that DS’s approval process for EAPs did not include a requirement to validate EAP
information or ensure that EAP resources were adequate to respond to emergencies. As a result,
the embassy’s risk of injury to personnel and loss of sensitive materials was unnecessarily
increased, as evidenced in part during the September 2011 attack on the embassy.

       (SBU) OIG also determined that as of December 1, 2012, the U.S. Consulate in Herat did
not have an approved EAP and the Qala-e-Naw Provincial Reconstruction Team3 (PRT) did not
have a memorandum of understanding (MOU) with the International Security Assistance Force
(ISAF) for emergency support. Although Embassy Kabul generally has MOUs with ISAF to
provide emergency support for COM personnel4 located outside the embassy, once Consulate

1
  12 FAH-1 H-031.
2
  12 FAH-1 H-231. An Emergency Action Committee is composed of senior embassy staff responsible for
emergency preparedness, including preparing and updating the EAP.
3
  A Provincial Reconstruction Team is a relatively small operational unit comprised of diplomats, military officers,
development policy experts from the U.S. Agency for International Development, and other specialists (in fields
such as rule of law, engineering, and commerce) who work closely with provincial leaders and the communities that
they serve to create stability across Afghanistan at the grass-roots level. Provincial Reconstruction Teams are
supported by militaries of the International Security Assistance Force.
4
  COM personnel in Afghanistan are the U.S. Government employees, contractors, local staff, and third-country
nationals that operate under the authority of the U.S. Mission to Afghanistan.

                                                         1

                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Herat officially was opened, the consulate should have had a formal EAP in place. The Herat
MOU expires when ISAF forces depart Herat, which may occur as early as mid-2013. The lack
of an EAP at that time could adversely affect the safety and security of COM personnel should
an emergency situation occur. Embassy Kabul did not have an MOU with ISAF for the Qala-e-
Naw PRT, which could lead to confusion about roles and responsibilities in the event of an
emergency, potentially placing COM personnel at unnecessary risk.

       (SBU) OIG recommended that Embassy Kabul ensure its EAP and the resources that
support it reflect changes in size and threat at the post, establish formal agreements with non-
Department law enforcement agencies concerning emergency response, and compile and
periodically update an inventory of all classified and sensitive materials that require destruction
during certain emergencies. OIG also recommended that Consulate Herat finalize an EAP and
ensure that consulate staff are trained on it before ISAF withdraws from Herat and that Embassy
Kabul establish an MOU with the ISAF commanders who manage the Qala-e-Naw PRT that
defines the roles and responsibilities for emergency response. Finally, OIG recommended that
DS validate the adequacy of EAPs at high-threat posts such as Embassy Kabul.

        (SBU) Although Embassy Kabul did not explicitly state its concurrence in its February 9,
2013, response to the draft report (See Appendix C), it described actions it had taken to
implement seven of nine recommendations made to the embassy. OIG considers six of those
recommendations resolved, and they can be closed upon receipt and approval of documentation
showing that the recommendations have been fully implemented. Although Embassy Kabul
stated that it had taken actions to implement the recommendation to establish agreements with
non-Department law enforcement agencies concerning emergency response, the action taken did
not constitute a formal agreement with those agencies, and therefore the recommendation is
unresolved.

        (SBU) Embassy Kabul did not explicitly state its non-concurrence with the
recommendation to establish and periodically update an inventory of classified and Sensitive But
Unclassified materials that require destruction during an Annex E emergency. However, the
embassy stated that it maintains a partial list of classified materials and works with all agencies
to ascertain which sensitive materials require destruction. OIG acknowledges that the embassy
maintains a list of some of the materials that require destruction; however, that list was not
complete. Therefore, the recommendation is unresolved.

        (SBU) Embassy Kabul also did not explicitly state its non-concurrence with the
recommendation that it should seek a formal security agreement with ISAF commanders
managing the Qala-e-Naw PRT. However, the embassy stated that it “does not find value or
practical benefit in engaging the Spanish government” since the PRT is scheduled to close in
June 2013. OIG does not consider Embassy Kabul’s comments to be responsive as Department
guidance requires that all COM staff be covered by the embassy’s EAP or by a support
agreement with ISAF. Therefore, the recommendation is unresolved.

       (U) DS did not provide a formal response to the draft report.


                                                 2

                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


                                                (U) Background

        (SBU) The FAH5 requires that all U.S. embassies and posts prepare an EAP that provides
procedures for responding to foreseeable emergency situations. The emergency situations can
differ depending on location and political stability in a particular region, so an EAP must be
tailored to the specific post. An EAP generally consists of seven chapters, 12 annexes, and
nine appendices.

        (SBU) The EAP chapters focus on the legal basis for the authorities and responsibilities
for emergency planning and on the organization and identification of personnel designated to fill
leadership roles for emergency response. The annexes contain information on how posts should
prepare for different types of emergency situations, which may differ from plan to plan based on
the post security environment. The appendices contain information such as command and
control locations, logistics and transportation, and facility information. (Titles of chapters,
annexes, and appendices for the Embassy Kabul EAP are listed in Appendix B.)

        (SBU) FAH guidance6 requires that a post’s EAP be reviewed and approved by DS. The
post is required to update the EAP annually7 and “on a continuous basis,” as applicable. The
guidance also requires each post to have an EAC, which includes subject matter experts
representing key functions from the mission. The committee members are appointed by the
COM, who also selects the chairperson. The EAC’s specific responsibilities include the
following:

            (SBU) Conducting vulnerability assessments to identify the post’s critical
             infrastructure assets to be protected.
            (SBU) Assessing the post’s and the host government’s capabilities and limitations for
             emergency response.
            (SBU) Using the results of the capabilities and limitation assessments to draft the
             EAP.
            (SBU) Developing the tripwires8 and actions to take when those events are met.
            (SBU) Updating the EAP as required.

       (SBU) To ensure uniformity, posts are required to use the Crisis and Emergency Planning
Application when preparing and updating their EAP. The Crisis and Emergency Planning
Application is a Web-based application designed to assist in EAP development and ensure
FAH compliance. The Crisis and Emergency Planning Application allows embassies to copy
and paste language from the FAH to their respective EAPs.

5
  12 FAH-1 H-031.
6
  12 FAH-1 H-030.
7
  The due date for the annual review is 1 year from the date of the initial plan’s last approval.
8
  12 FAH-1 H-751. Tripwires are events that activate, initiate, or set in motion plans to prevent harm to the post, its
personnel, the U.S. citizen community, or other U.S. national interests.

                                                           3

                                    SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


       (SBU) Once the EAC certifies in the Crisis and Emergency Planning Application that the
EAP is complete and accurate, the Application automatically sends a copy of the EAP to DS for
review. After completing its review, DS notifies the post of the results. Once the post addresses
any substantive issues, DS publishes the unclassified portions of the EAP on the DS Web site.
The EAPs, including any classified portions, are posted to the DS Secure On-line User Resource
and Communication Environment Web site.

(U) Emergency Action Plan Guidance

       (SBU) The specific information to be included in EAP Annexes C, D, E, G, and K is
contained in the respective annexes of 12 FAH-1, which requires the annexes to contain the
following information.

            (SBU) Annex C, “Civil Disorder,” provides guidance for situations such as general
             strikes, anniversaries of highly emotional incidents, major holidays drawing large
             crowds, demonstrations, civil wars, states of siege, curfews, or any other politically
             inspired activity that has the potential for violence, whether or not it is directed
             against U.S. personnel or premises.
            (SBU) Annex D, “Internal Defense,” provides guidance to safeguard embassy or
             consulate employees when an incident requires an internal defense response. Such
             incidents include terrorism, mob action, or political unrest, and they may occur
             without warning or as a result of days or weeks of increasing tension.
            (SBU) Annex E, “Destruction of Sensitive Materials,” provides guidance aiming to
             prevent classified national security information, as well as Sensitive But Unclassified
             information and materials,9 from being compromised by reducing the quantity of
             classified and Sensitive But Unclassified material held at posts.
            (SBU) Annex G, “Hostage Taking,” provides guidance for dealing with a kidnapping
             or hostage taking of any U.S. citizen, as well as dealing with a hostage barricade
             situation other than an aircraft hijacking.
            (SBU) Annex K, “Drawdown and Evacuation,” provides guidance for posts when a
             drawdown of post personnel or options for evacuation situations occur. These
             options include standing fast, allowing employees and eligible family members to
             depart post, limiting the number of incoming staff, and evacuating under Authorized
             Departure or Ordered Departure.

       (SBU) EAP appendices are intended to provide information on the resources, locations,
and other logistics used to support implementation of EAP Annexes. Specific information the


9
  12 FAM 541. Sensitive But Unclassified information is information that is not classified for national security
reasons but that warrants administrative control and protection from public or other unauthorized disclosure for
other reasons. Sensitive But Unclassified material could include personal information, such as social security
numbers, proprietary information, and law enforcement information.

                                                          4

                                   SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


appendices address include, among other items, points of contact, emergency shelter locations,
medical services, communications, and command structures.

(U) Embassy Kabul Configuration

       (U) Embassy Kabul is situated on a large compound separated into two sides, the east
side and the west side, [Redacted] (b) (5)




                                    (U) Evaluation Objective
       (U) The evaluation objective was to determine whether U.S. Mission Afghanistan
personnel were aware of the emergency procedures contained in the EAP, sufficient resources
were available to respond to the emergencies addressed in selected EAP annexes, and the EAP
was up to date and included all personnel under COM authority.
      (U) This report, one of three reports concerning EAPs, focuses on the U.S. Mission
Afghanistan EAPs. A January 2012 OIG evaluation report10 focused on the U.S. Mission Iraq
EAPs, and a subsequent report will focus on the U.S. Mission Pakistan EAPs.

      (U) The evaluation was limited to EAP Annexes C, D, E, G, and K, and their supporting
appendices, as these are the areas that are most relevant to recent events in the Middle East.




10
  Evaluation of Emergency Action Plans for Embassy Baghdad and Consulates General Basrah and Erbil
(AUD/MERO-12-18, Jan. 2012).

                                                     5

                                SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED


                                            (U) Evaluation Results

    (SBU) Finding A. Embassy Kabul Emergency Action Plan Annexes Were
    Approved, but Certain Resources Were Not Available To Respond Effectively
    to Annex D and E Emergencies
           (U) Embassy Kabul’s EAP Annexes C, D, E, G, and K were approved by DS’s
    Emergency Planning Branch in May 2011, and the EAC made embassy personnel aware of the
    EAP and held the required EAP drills. However, the EAC had not ensured that certain resources
    were available to respond effectively to EAP Annex D emergencies.11 Specific instances are as
    follows:
[Redacted] (b) (5)

                (U) Some embassy emergency shelters lacked a sufficient amount of supplies,
                 including food and water rations and medical supplies.
 [Redacted] (b) (5)




            (SBU) In addition, Embassy Kabul had not developed a comprehensive list of all
    sensitive materials that should be destroyed in the event of an emergency, as required by EAP
    Annex E.

            (U) These deficiencies occurred because emergency planning did not fully reflect the
    increased threat in Kabul or the significant growth in staffing levels at Embassy Kabul from
    2009 through 2012. In addition, DS’s EAP approval process did not include a requirement to
    validate the adequacy of EAPs or ensure that resources were available to respond to EAP-related
    emergencies. As a result, the risk of injury to embassy personnel and of the loss of sensitive
    documents and materials was unnecessarily increased, as evidenced in part during the
    September 13, 2011, attack on the embassy.

            (SBU) After the attack, referred to as the “9/13 attack,” the embassy immediately
    established a working group to collect lessons learned. The group is composed of officials from
    the Management section, Regional Security Office (RSO), the U.S. Agency for International
    Development, Consular section, Political-Military Affairs, Public Affairs, Overseas Buildings
    Operations, and the Executive Secretariat and is co-chaired by the Management Counselor and
    the Deputy RSO. The group identified a number of deficiencies concerning EAP resources and
    implementation, including limited protective cover for buildings, an insufficient amount of

    11
      This review focused on the 2011 version of the EAP, which was in effect during the September 2011 attack on
    Embassy Kabul. As in the 2011 version, the 2012 version did not adequately reflect the resource requirements for
    the embassy.

                                                            6

                                      SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


      rations and supplies, and inadequate communications. As of December 2012, the embassy had
      taken some actions intended to address those deficiencies, including acquiring additional rations
      and issuing a communications policy for embassy personnel during an emergency.

      (U) EAP Approved and Tested
               (SBU) Embassy Kabul’s EAP Annexes C, D, E, G, and K were approved by DS’s
      Emergency Planning Branch in May 2011. Embassy Kabul kept staff informed of the EAP and
      emergency procedures by briefing new staff on the EAP when they arrived at post, publishing
      the EAP on the embassy Web site, and issuing regular management and security notices to keep
      staff informed. The embassy also conducted periodic EAP planning, training, and drills, which
      identified areas for improvement. For example, during OIG’s fieldwork, the embassy was
      working to improve and extend the speaker coverage of the public address system and had
      ordered additional personal protective equipment when the results of drills demonstrated
      communication problems and a shortage of protective gear.

      (U) EAP Not Properly Resourced
              (SBU) Although the EAP had been approved by DS, the EAC had not ensured that
      certain resources were available to effectively respond to Annex D emergencies. Specifically,
      there were inadequate [Redacted] (b) (5)                                    there was an
      inadequate amount of rations and medical supplies available for personnel to withstand extended
      attacks; there were insufficient communications [Redacted] (b) (5)

                 Further, the EAP appendices, which are meant to provide updated information such as
      on the amounts and locations of resources for use in emergencies covered by the annexes, did not
      reflect the size, layout, and resource needs of the embassy compound.

              (U) Some of the deficiencies OIG identified were highlighted during the 9/13 attack on
      Embassy Kabul. During that attack, armed Afghan militants fired small arms into Embassy
      Kabul from a high-rise building located near the embassy. The 9/13 attack caused minor injuries
      to one embassy guard and one Afghan national conducting business at Embassy Kabul and
      disrupted embassy operations for approximately 20 hours.

              (U) Emergency Shelters                                                    [R
                                                                                        ed
                                                                                                     13
             (SBU) [Redacted] (b) (5)                                                   act The FAH
      requires embassy compounds to maintain safe havens or safe    areas, which are theed]
                                                                                         most secure
                                                                                        (b)
                                                                                        (5)
[Redacted] (b) (5)




                                                      7

                                   SENSITIVE BUT UNCLASSIFIED
                                            SENSITIVE BUT UNCLASSIFIED


    types of emergency shelter. The FAH states that qualifying safe havens and safe areas must be
    equipped with [Redacted] (b) (5)
        communications equipment. [Redacted] (b) (5)
[Redacted] (b) (5)




                         (U) Rations and Medical Supplies

            (SBU) Embassy emergency shelters lacked sufficient supplies and equipment as required
    by Department guidance and the EAP. The FAH and EAP require that, in advance of an actual
    emergency, the embassy ensure that sufficient supplies and equipment are placed in emergency
    shelter locations where embassy staff would take cover during an emergency. OIG determined
    that some emergency shelters did not contain adequate amounts of pre-positioned food, water,
    and medical supplies and that some of the supplies were expired, unsecured, or inaccessible.
                                                                                                  [Redacted] (b) (5)   [Redacted] (b) (5)
            (U) During a June 2012 inventory, OIG determined that           of the emergency
                                                               [Redacted] (b) (5)
    shelters did not contain meals and that the other shelters contained a total of approximately
    [Redacted] (b) (5)                                                       [Redacted] (b) (5)
           meals. With an embassy population of around             personnel, this equates to
    approximately [Redacted] (b) (5)
    [Redacted] (b) (5)
                                                                             Further, of the
       emergency shelters that contained meals,   [Redacted] (b) (5)
              as required by safety guidelines. OIG also determined, as exemplified in Figure 1, that
                                                            [Redacted] (b) (5)
    the food and water supplies were unsecured in         of the emergency shelters. According to
    embassy officials, the unsecured water supplies were often removed and consumed by embassy
    personnel during their normal course of business, thereby reducing the supplies available during
    an emergency.




[Redacted] (b) (5)

    14
       12 FAH-5 H-40.
[Redacted] (b) (5)




                                                               8

                                            SENSITIVE BUT UNCLASSIFIED
                                      SENSITIVE BUT UNCLASSIFIED




                 (U) Figure 1. An unsecured rations and supplies container at an emergency shelter.
                 (OIG photograph)



        (SBU) OIG also determined that not all emergency shelters contained adequate medical
                                                                                       [Redacted] (b) (5)
supplies, specifically [Redacted] (b) (5)                              Of the emergency
shelter locations, only [Redacted] (b) (5)
      [Redacted] (b) (5)
                                                                                             Of
the shelters that   [Redacted] (b) (5)
                                                                             In addition, the
number of [Redacted] (b) (5)



        (U) According to officials in the embassy’s General Services Office, who are primarily
responsible for obtaining, stocking, and maintaining the prepositioned inventories, additional
food and water were stored [Redacted] (b) (5)
However, obtaining those supplies during an attack would be difficult and potentially
dangerous—especially for those individuals [Redacted] (b) (5)                    During the
9/13 attack, some of the emergency shelters quickly ran out of water, and RSO personnel put
themselves at further risk to obtain and distribute additional water supplies. Other personnel
went without water until they were moved to locations that had water.

                 (U) Communications

       (SBU) The embassy’s ability to communicate emergency messages to its personnel was
hindered by a limited [Redacted] (b) (5)             and unreliable emergency alarm and
voice broadcasting equipment. The FAH encourages redundancy in communication methods
and advises a post to consider the communication methods that are available given the hazards

17
     12 FAH-1 H-735 and 12 FAH-1, app.7.

                                                        9

                                      SENSITIVE BUT UNCLASSIFIED
                                         SENSITIVE BUT UNCLASSIFIED


the post faces. High- and medium-threat posts, such as Embassies Baghdad, Iraq, and Cairo,
Egypt, [Redacted] (b) (5)                                          However, prior to the
                                                                  [Redacted] (b) (5)
9/13 attack, most Embassy Kabul staff were provided only with                        while only RSO
                                                                                             [Redacted] (b) (5)
personnel and other senior staff involved in organizing emergency response received
[Redacted] (b) (5)   According to embassy officials, [Redacted] (b) (5)
[Redacted] (b) (5)        the embassy relied on the public address system to communicate
information to staff; however, the public address system provided only one-way communication,
and the embassy had experienced problems with system announcements reaching all parts of the
embassy compound. In addition, during the attack, personnel were unclear as to when, and for
what purposes, they should use their cell phones. Subsequent to the attack, the embassy
expanded [Redacted] (b) (5)




        (U) [Redacted]                Capabilities and Law Enforcement Agreements
           (b) (5)
                                                                                    [Redacted] (b) (5)
        (SBU) [Redacted] (b) (5)                                                 currently relying on
ISAF, which is scheduled to depart Kabul in 2014. In addition, the embassy has not clearly
defined the roles and responsibilities of non-Department law enforcement personnel during an
Annex D emergency. Although EAP Annex D does not specifically address fires, a fire could
result from an Annex D emergency event. [Redacted] (b) (5)
                                             Management officials stated that the embassy had
[Redacted] (b) (5)                                 and has had an agreement with ISAF, located
near the embassy compound, to provide       [Redacted] (b) (5) support if needed. However, ISAF is
scheduled to depart in 2014, at which time the embassy will be left with [Redacted] (b) (5)
              Further, until 2014, if both the embassy and ISAF compounds have [Redacted] (b) (5)
                 [Redacted] (b) (5)
                   for example, if they are both under attack as they were during the 9/13 attack,        [Redacted] (b) (5)
ISAF might not be able to assist the embassy, and the embassy would not have the ability to


         (U) During the 9/13 attack, personnel from non-Department law enforcement agencies
provided ad hoc assistance to the RSO. For example, one of the non-Department agents assisted
the RSO by escorting medical staff between buildings and accompanying RSO agents as needed.
In addition, law enforcement agents from the Department of Homeland Security, the Special
Inspector General for Afghanistan Reconstruction, and OIG assisted in securing some emergency
shelters. However, while some of the law enforcement agents stated that they were prepared to
assist, they were unsure as to what emergency response role they were expected to play, if any.
One law enforcement agent stated that his agency preferred to not have an emergency response
role because that agency considered emergency response to be strictly an RSO responsibility.




                                                         10

                                         SENSITIVE BUT UNCLASSIFIED
                                          SENSITIVE BUT UNCLASSIFIED


    (U) Identification of Sensitive Material Incomplete

            (SBU) The embassy did not have a complete inventory of documentation, electronic data,
    and sensitive equipment that would require destruction during an emergency. Annex E of
    12 FAH-1 and the Records Management Handbook18 require that embassies plan for the
    destruction of classified and Sensitive But Unclassified records and materials. However,
    although the embassy had identified some of the materials that would require destruction, the
    EAC had not established and maintained an inventory of all of the sensitive materials located
    throughout the embassy. In June 2011, OIG visited six different section offices and saw
    substantial amounts of sensitive records that could require destruction. For example, in the
    consular section, OIG observed [Redacted] (b) (5)
                                                      According to the head of consular section, these
                                                                    [Redacted] (b) (5)

    sensitive materials included [Redacted]    (b) (5)   which would be difficult and time consuming
    to destroy in a shredder. Other embassy officials stated that they had not been contacted
    regarding the amount of records and data that could require destruction and that their offices had
    not developed individual plans for doing so.

    (U) Emergency Planning an Inadequate Reflection of Threat or Staffing Levels

            (SBU) The EAC did not ensure that emergency planning fully reflected the increased
    threat in Kabul or the significant growth in staffing levels at Embassy Kabul from 2009 through
    2012. For example, according to the Bureau of Counterterrorism’s 2011 Country Reports on
    Terrorism, the number of terrorist attacks in Afghanistan increased from 1,122 in 2007 to 2,872
    in 2011. In addition, six of the 10 major attacks in Afghanistan during 2011 were in Kabul, and
    two of those attacks were on U.S. diplomatic facilities. Other targets in Kabul were locations
    frequented by Westerners, including the Intercontinental Hotel and the British Council.20 In
    addition to the increased security threat, the staffing levels at the embassy increased from
                     [Redacted] (b) (5)                  [Redacted] (b) (5)
    approximately       in 2009 to approximately           in 2012, and the embassy began constructing
                                                                                         [Redacted] (b) (5)
    additional working and living space [Redacted] (b) (5)                     However, the EAP
    approved by DS in May 2011 did not fully reflect the increased threat or staffing levels. In
    addition, as previously stated (see Background section of this report), the FAH requires that
    EAPs be updated on a continuous basis, not just when a new version of the EAP is due to be
    submitted to DS for approval. However, the 2011 EAP was not adequately updated between the
    May 2011 version approved by DS and the June 2012 annual update made by the embassy.
    Similarly, the resource requirements in the 2012 version of the EAP were not adequately
    updated.

           (SBU) As construction has occurred on the [Redacted] (b) (5) compound, changes to the
    layout were not included on EAP maps, nor were updates made to appendices that listed the
    emergency shelter locations and listed the amount of supplies and equipment to be stocked in

    18
       5 FAH-4 H-315.2-2.
[Redacted] (b) (5)
    20
      The British Council is the United Kingdom’s international organization for cultural relations and educational
    opportunities.

                                                               11

                                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


each. Further, as the compound grew in size and staff, the EAC had not made considerations
concerning other emergency issues, such as [Redacted] (b) (5) capabilities. Although some actions
were taken after the 9/13 attack to enhance the emergency resources on the compound, including
increasing food and water rations in emergency shelters, as of December 2012, the EAP had not
been updated to fully reflect the resource needs for the current staffing, layout, or threat level.
Further, some embassy officials in the office responsible for stocking the emergency shelters
stated that they did not maintain a list of all of the shelters and were unaware of all of the shelter
locations until they had accompanied OIG team members during OIG’s June 2012 inventory of
the shelters and the supplies and equipment contained in those locations. The EAC needs to
ensure that the EAP is periodically updated as required to ensure that all personnel have adequate
shelter, supplies, and access to equipment during an emergency situation. The EAC should also
ensure that current inventory amounts listed in the EAP are maintained and should conduct
periodic inspections to adjust the inventories if needed.

(U) EAP Approval Process Not Adequate for High-Threat Posts

        (U) The DS approval process for EAPs did not include a requirement to validate the EAP
information or ensure that resources needed to implement the EAP were adequate to respond to
EAP-related emergencies. For example, the approval process did not include a physical
inspection of the resources available to implement the EAP. Further, even an embassy that was
adequately resourced at the time the EAP was submitted for approval could become
under-resourced as the year passed, for example, through the expiration of rations or medicine or
an increase in the number of staff or facilities. However, the EAP approval process did not
include a requirement for DS to follow up with posts to ensure that they were keeping resources
current over the course of the year. These issues are exacerbated at the high-threat posts, since
the threat levels are also subject to constant change. Therefore, DS should establish a process to
periodically conduct physical inspections at high-threat posts to ensure that the EAP adequately
reflects size, staffing, and threat levels.

(SBU) Risk of Injury to Personnel and of Loss of Sensitive Material Increased

        (SBU) The lack of adequate emergency shelters [Redacted] (b) (5)                     the
lack of sufficient emergency supplies and equipment, the lack of redundancy in communications,
the [Redacted] (b) (5)               absence of an agreement with non-Department law
enforcement on emergency assistance, and the inability to identify and destroy sensitive material
unnecessarily increased the risk of injury to embassy staff and of compromising sensitive
material during an emergency situation. While there were no deaths or serious injuries in the
9/13 attack, there was unnecessary risk to staff during the 9/13 attack because of a lack of these
resources and protections. Furthermore, in a more protracted attack, the lack of certain resources
and protections could become more of a problem. [Redacted] (b) (5)


                                        In a more protracted attack, water and food rations
could become more important and RSO staff might be otherwise occupied and unable to bring

                                                 12

                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED


rations out to some emergency shelters that needed them. In addition, the lack of redundant
personal communications equipment could prevent security officers from ensuring that all
embassy staff received detailed information on the nature of the emergency, how staff should
respond, and where staff should seek shelter. Moreover, embassy personnel’s use of cell phones
to contact people outside the embassy during an attack could potentially compromise operational
security and place embassy personnel at higher risk of injury or death.

(U) Management Actions Taken

       (SBU) After the 9/13 attack, the embassy established a working group to collect lessons
learned. Based on the results of that working group, the embassy installed additional [Redacted] (b) (5)


                                                 Embassy officials stated that they planned to[Redacted] (b) (5)
provide additional walled coverage with a controlled access entrance for new one-story
         office buildings that opened in early 2012. [Redacted] (b) (5)




       (SBU) The embassy also added food and supplies to emergency shelters. However,                        [Redacted] (b) (5)
based on OIG’s June 2012 inventory of pre-positioned supplies, OIG found that the embassy

                             Furthermore, as of June 2012, the embassy did not have a sufficient
[Redacted] (b) (5)                                                                          Even
with its latest 2012 version of the EAP, the embassy had not updated all the information on
shelter rations and supplies contained in the EAP appendices, which are intended to track what
supplies will be kept in different facilities on the embassy compound. The embassy issued a new
policy for communications21 on September 21, 2011, that included restricting the use of cell
phones during an emergency. In addition, the embassy acquired [Redacted] (b) (5) for all senior
embassy personnel, including section heads, but not for all embassy personnel.[Redacted] (b) (5)
                                                makes these personnel dependent on either cell
phones or on the voice broadcast system, which is only one-way communication and continues
to be unreliable in some locations across the embassy compound.

          (U) Recommendation 1. OIG recommends that Embassy Kabul establish a process to
          ensure that its Emergency Action Plan and the resources available to implement it reflect
          the changing size and threat level at the post, including adjusting the amount of supplies
          and equipment listed in the Emergency Action Plan and stocked at the embassy based on

21
     Management Policy #11–49, “Cell Phone Usage During An Emergency.”

                                                     13

                                  SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


the size of the embassy population, the length of time that the embassy could experience
an emergency, and the severity of that emergency.

(U) Embassy Kabul Response: Embassy Kabul did not explicitly state its concurrence
with the recommendation. However, the embassy stated that it updates the EAP on a
continuous basis and that in the summer of 2012, the RSO began an effort to adjust the
amounts of supplies and equipment and to update the appropriate EAP sections.

(U) OIG Reply: OIG considers the recommendation resolved. The recommendation can
be closed when OIG reviews and accepts documentation indicating that a process has
been established to ensure that planning and resources continually reflect the evolving
emergency response needs at Embassy Kabul.

(U) Recommendation 2. OIG recommends that Embassy Kabul establish, update, and
periodically inspect the inventory of emergency supplies and equipment for each
emergency shelter within the embassy compound to ensure that supplies and equipment
on-site reflect the amounts noted in the Emergency Action Plan and remain useable
during emergencies.

(U) Embassy Kabul Response: Embassy Kabul did not explicitly state its concurrence
with the recommendation. However, the embassy stated that it has begun periodic
inspections of rations and supplies in the emergency shelters and that it will develop and
implement a comprehensive program to ensure that there are [Redacted] (b) (5)
                              for the embassy population.

(U) OIG Reply: OIG considers the recommendation resolved. The recommendation
can be closed once OIG reviews and accepts documentation showing that the embassy
has implemented a process to establish, update, and periodically inspect the inventory of
emergency supplies and equipment for each shelter.

(SBU) Recommendation 3. OIG recommends that Embassy Kabul identify the total
number [Redacted] (b) (5)




(SBU) Embassy Kabul Response: Embassy Kabul did not explicitly state its
concurrence with the recommendation. However, the embassy stated that it has opened
[Redacted] (b) (5)                              of the compound and included their
locations and other pertinent details in the EAP. The embassy also stated that, in
coordination with the Bureau of Overseas Buildings Operations, it has begun phased
construction of sidewall and overhead protection [Redacted] (b) (5)



                                        14

                      SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED


(SBU) OIG Reply: OIG considers this recommendation resolved. OIG confirmed that
the embassy has recently opened [Redacted] (b) (5)                              the
compound. The recommendation can be closed once OIG reviews and accepts
documentation showing that the [Redacted] (b) (5)
                                                   and that the the EAP has been
updated to show the location of [Redacted] (b) (5)


(SBU) Recommendation 4. OIG recommends that Embassy Kabul provide all embassy
staff with radios for use in responding to emergencies.

(SBU) Embassy Kabul Response: Embassy Kabul did not explicitly state its
concurrence with the recommendation. However, the embassy stated that it has greatly
expanded the radio communications infrastructure on the compound, [Redacted] (b) (5)



(U) OIG Reply: OIG considers this recommendation resolved. The recommendation    [Redacted] (b) (5)
can be closed once OIG reviews and accepts documentation demonstrating that all


(SBU) Recommendation 5. OIG recommends that Embassy Kabul establish or acquire
the capacity for [Redacted] (b) (5)

(SBU) Embassy Kabul Response: Embassy Kabul did not explicitly state its
concurrence with the recommendation. However, the embassy stated that it is              [Redacted] (b) (5)
coordinating with the Bureau of Overseas Buildings Operations and ISAF concerning
        capabilities. The embassy stated it had requested its current operations and
maintenance contractor to provide a cost estimate [Redacted] (b) (5)


(SBU) OIG Reply: OIG considers this recommendation resolved. The
recommendation can be closed once OIG reviews and accepts documentation showing
that Embassy Kabul has a acquired [Redacted] (b) (5)

(U) Recommendation 6. OIG recommends that Embassy Kabul establish formal
agreements on the roles and responsibilities of non-Department of State law enforcement
agencies during events requiring implementation of the Emergency Action Plan.

(U) Embassy Kabul Response: Embassy Kabul did not explicitly state its concurrence
with the recommendation. However, the embassy stated that Department and other law
enforcement agencies in Kabul have participated in compound familiarization tours,
coordination meetings, emergency drills, and major events. The embassy stated that it
had drafted an information memorandum entitled “The Role of Internal Defense Team
and Other Federal Law Enforcement Personnel in the Event of an Internal Defense

                                       15

                     SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED


Situation,” which describes the roles and responsibilities of all law enforcement agencies
during emergencies.

(U) OIG Reply: OIG considers this recommendation unresolved. OIG acknowledges
that it reviewed and accepted the memorandum the embassy cites, which was finalized on
January 28, 2013. However, the memorandum does not formalize agreements between
the embassy and non-Department law enforcement agencies. Therefore, Embassy Kabul
is requested to provide additional comments.

(SBU) Recommendation 7. OIG recommends that Embassy Kabul establish and
periodically update an inventory of all classified and sensitive materials that require
destruction during an emergency that requires implementing Annex E of the Emergency
Action Plan.

(SBU) Embassy Kabul Response: Embassy Kabul did not explicitly state its
non-concurrence with the recommendation. However, the embassy stated that it already
fulfills the Annex E requirements by maintaining a classified materials destruction list,
routinely sending management notices discussing handling and destruction requirements
for classified materials, and working with all embassy agencies and sections to ensure
updated inventories of all classified and Sensitive But Unclassified materials are included
in destruction planning.

(SBU) OIG Reply: OIG considers this recommendation unresolved. OIG
acknowledged in the draft report that the embassy maintains a list of some materials it
must destroy in an Annex E emergency. However, officials from six offices with
substantial amounts of Sensitive But Unclassified materials stated that they had not been
contacted about the amount or nature of the materials in their offices’ possession that
could require destruction nor had they been included in any planning for destroying those
materials. Therefore, Embassy Kabul is requested to provide additional comments.

(U) Recommendation 8. OIG recommends that the Bureau of Diplomatic Security
establish a process to validate the adequacy of Emergency Action Plans at high-threat
posts, such as Embassy Kabul, by reviewing and assessing the resources listed in the
plans for addressing each type of Emergency Action Plan emergency.

(U) DS Response: DS did not provide formal comments to the draft report.

(U) OIG Reply: OIG considers this recommendation unresolved, and DS is requested
to provide comments.




                                        16

                      SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


(SBU) Finding B. U.S. Consulate and Provincial Reconstruction Team
Lacked Emergency Plans

        (SBU) U.S. Consulate Herat did not have an approved EAP, and the Qala-e-Naw PRT
did not have a formal agreement with local ISAF commanders to provide assistance during an
emergency situation. (The locations of Herat and Qala-e-Naw are shown in Figure 2.) As of
December 2012, RSO officials in Herat had drafted sections of an EAP but had not completed it.
Although ISAF formally agreed to provide security and emergency response for Herat, ISAF
plans to withdraw from the region in mid-2013. Embassy Kabul officials stated that the ISAF
commanders supporting the PRT in Qala-e-Naw, for unknown reasons, were unwilling in
2010 to sign a formal agreement to provide assistance to COM personnel in the event of an
emergency. The lack of emergency plans at posts in Herat and Qala-e-Naw could adversely
affect the safety and security of COM personnel should an emergency situation occur.




      (U) Figure 2. Map of Afghanistan. (State map)




                                              17

                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


(SBU) U.S. Consulate Herat Lacked an Emergency Action Plan
        (SBU) As of December 1, 2012, U.S. Consulate Herat, which opened in March 2012, did
not have an approved EAP. The FAH22 requires that each U.S. Embassy or consulate have an
EAP. According to RSO staff in Herat, the EAP was “mostly” drafted and some sections were
awaiting approval by senior consulate officials; senior Embassy Kabul officials; and DS officials
from Washington, DC. DS officials stated that Consulate Herat had drafted only about two-
thirds of the required EAP sections. Although DS has reviewed these sections, it cannot
formally approve and issue the EAP until all sections are completed.
        (SBU) Embassy Kabul generally has MOUs with ISAF units to provide emergency
support for COM personnel located outside the embassy. However, once Consulate Herat
officially opened, it was required to have an approved EAP and ensure that consulate personnel
were trained on their EAP responsibilities. The current MOU for Herat expires when ISAF
forces depart from Herat, which may occur as early as mid-2013. Without a finalized EAP, the
consulate staff at Herat could be unprepared to respond to emergency situations, thereby
increasing the risk of injury or death.

(SBU) PRT in Qala-e-Naw Lacks an MOU for Emergency Support
       (SBU) The Qala-e-Naw PRT is not covered by an MOU with ISAF for support during an
emergency. Security and life support for COM staff in PRTs are provided through a series of
MOUs signed in 2010 between Embassy Kabul and ISAF. The agreements generally state that
ISAF will host and provide security for COM staff in Afghanistan who are working and living
outside COM facilities. Specifically, the MOUs identify ISAF’s role in providing life support,
supplies, and services, personnel protection on compound and for ground movements, and
emergency medical care for COM staff.
        (SBU) However, the Qala-e-Naw PRT is not covered by an MOU. According to
embassy officials, commanders in 2010 from the Spanish military, which provides security for
the PRT, initially declined to sign an MOU for unknown reasons. Embassy officials stated that
they had no plans to reach out to Spanish commanders again and that the Spanish commanders
had generally agreed verbally to provide emergency support to U.S. COM personnel in Qala-e-
Naw. However, the absence of a formal MOU could lead to confusion about roles and
responsibilities in the event of an emergency, potentially placing COM personnel at unnecessary
risk until the PRT’s operations are scheduled to end sometime between May and late June 2013.

          (SBU) Recommendation 9. OIG recommends that Embassy Kabul and Consulate Herat
          finalize and issue an Emergency Action Plan and ensure that consulate personnel are
          trained on the plan before the drawdown and departure of the International Security
          Assistance Force from Herat.

          (SBU) Embassy Kabul Response: Embassy Kabul did not explicitly state its
          concurrence with the recommendation. However, the embassy stated that Consulate

22
     12 FAH-1 H-031.

                                               18

                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


          Herat had finalized its EAP in December 2012. The embassy also stated that the
          consulate had opened in March 2012 and that newly established posts are generally given
          about 1 year to complete their EAPs.

          (SBU) OIG Reply: OIG considers this recommendation resolved although OIG
          disagrees that newly established posts are generally given about a year to complete their
          EAP. The FAH clearly states that all posts are required to have an approved EAP,23 and
          it provides no grace period for newly established posts. However, since the Consulate
          Herat EAP was finalized in December 2012, Embassy Kabul has met the intent of the
          recommendation. The recommendation can be closed once OIG reviews and accepts
          documentation demonstrating that the EAP has been completed and approved and that the
          Consulate Herat staff have received training on the plan.

          (SBU) Recommendation 10. OIG recommends that Embassy Kabul seek a formal
          agreement with the International Security Assistance Force commanders who manage the
          Qala-e-Naw Provincial Reconstruction Team to ensure that Chief of Mission personnel
          working in Qala-e-Naw are supported in the event of an emergency until the Provincial
          Reconstruction Team’s operations are ended.

          (SBU) Embassy Kabul Response: Embassy Kabul did not explicitly state its
          non-concurrence with the recommendation. However, the embassy stated that the
          Qala-e-Naw PRT is scheduled to close in June 2013, with COM personnel departing
          30-60 days prior to the scheduled closure. The embassy also stated that there are
          important national and policy perspectives to warrant continued presence in Qala-e-Naw,
          but that it does not see value or practical benefit to engaging the Spanish government in
          negotiation of such an agreement.

          (SBU) OIG Reply: OIG considers this recommendation unresolved. OIG appreciates
          the difficulty in negotiating a formal agreement with a foreign government; however, a
          formal support agreement could prevent COM staff and others from properly responding
          to an emergency, thereby increasing unnecessary risk and confusion. Therefore, the
          recommendation is unresolved and Embassy Kabul is requested to provide additional
          comments.




23
     12 FAH-1 H-031.

                                                 19

                                SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                               (U) List of Recommendations

(U) Recommendation 1. OIG recommends that Embassy Kabul establish a process to ensure
that its Emergency Action Plan and the resources available to implement it reflect the changing
size and threat level at the post, including adjusting the amount of supplies and equipment listed
in the Emergency Action Plan and stocked at the embassy based on the size of the embassy
population, the length of time that the embassy could experience an emergency, and the severity
of that emergency.

(U) Recommendation 2. OIG recommends that Embassy Kabul establish, update, and
periodically inspect the inventory of emergency supplies and equipment for each emergency
shelter within the embassy compound to ensure that supplies and equipment on-site reflect the
amounts noted in the Emergency Action Plan and remain useable during emergencies.
                                                                                                [Redacted] (b) (5)
(SBU) Recommendation 3. OIG recommends that Embassy Kabul identify the total number
[Redacted] (b) (5)



(SBU) Recommendation 4. OIG recommends that Embassy Kabul provide all embassy staff
with radios for use in responding to emergencies.

(SBU) Recommendation 5. OIG recommends that Embassy Kabul establish or acquire the
capacity for [Redacted] (b) (5)

(U) Recommendation 6. OIG recommends that Embassy Kabul establish formal agreements
on the roles and responsibilities of non-Department of State law enforcement agencies during
events requiring implementation of the Emergency Action Plan.

(SBU) Recommendation 7. OIG recommends that Embassy Kabul establish and periodically
update an inventory of all classified and sensitive materials that require destruction during an
emergency that requires implementing Annex E of the Emergency Action Plan.

(U) Recommendation 8. OIG recommends that the Bureau of Diplomatic Security establish a
process to validate the adequacy of Emergency Action Plans at high-threat posts, such as
Embassy Kabul, by reviewing and assessing the resources listed in the plans for addressing each
type of Emergency Action Plan emergency.

(SBU) Recommendation 9. OIG recommends that Embassy Kabul and Consulate Herat
finalize and issue an Emergency Action Plan and ensure that consulate personnel are trained on
the plan before the drawdown and departure of the International Security Assistance Force from
Herat.



                                                20

                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


(SBU) Recommendation 10. OIG recommends that Embassy Kabul seek a formal agreement
with the International Security Assistance Force commanders who manage the Qala-e-Naw
Provincial Reconstruction Team to ensure that Chief of Mission personnel working in Qala-e-
Naw are supported in the event of an emergency until the Provincial Reconstruction Team’s
operations are ended.




                                             21

                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


                                                                                (U) Appendix A
                               (U) Scope and Methodology

        (SBU) The Office of Inspector General (OIG) initiated this work under the authority of
the Inspector General Act of 1978, as amended, to determine whether U.S. Mission Afghanistan
personnel were aware of the emergency procedures contained in the Emergency Action Plan
(EAP), sufficient resources were available to respond to the emergencies addressed in selected
EAP annexes, and the EAP was up to date and included all personnel under Chief of Mission
(COM) authority. This evaluation was limited to five annexes and supporting appendices
contained in the U.S. Embassy Kabul, Afghanistan, EAP. The five annexes evaluated were those
on civil disorder (Annex C), internal defense (Annex D), destruction of sensitive material
(Annex E), hostage taking (Annex G), and drawdown and evacuation (Annex K), as these are the
areas that are most relevant to recent events in the Middle East.

       (U) OIG reviewed the relevant Department of State agreements with International
Security Assistance Force (ISAF) militaries for ISAF to provide security and support for COM
personnel serving in the provinces. OIG also verified that the embassy briefs all incoming
personnel on emergency procedures and informs staff of the location of the EAP.

        (SBU) OIG reviewed the relevant EAP annexes, observed deployed resources, and
obtained supporting documentation such as reports and memoranda on the numbers and status of
equipment and the construction schedule for new hardened office and residential structures. OIG
reviewed EAP appendices that support Annex D and conducted an inventory in June 2012 of
pre-positioned emergency resources at Embassy Kabul to ascertain the amount and adequacy of
these resources. OIG also observed records in various embassy offices and sections that would
require destruction under Annex E emergencies.

        (U) OIG observed a weapons of mass destruction drill at Embassy Kabul and reviewed
after-action and lessons-learned reports related to the attack on the embassy on September 13,
2011.

        (U) OIG conducted interviews with key embassy personnel responsible for developing
and implementing the EAP from the Regional Security Office, the Management Section—
including the General Services Office, the Facilities Office, and the Medical Office—and the
Assistant Chief of Mission. OIG also met with officials from various sections of the embassy,
including the consular, political, and economic sections, and officials from the U.S. Agency for
International Development, the Department of Homeland Security, the Federal Bureau of
Investigation, and the Special Inspector General for Afghanistan Reconstruction. OIG also
interviewed officials at Consulate Herat and the Provincial Reconstruction Team (PRT) in
Mazar-e-Sharif and reviewed memoranda of understanding between Embassy Kabul and ISAF
militaries regarding emergency support for COM staff serving in PRTs throughout Afghanistan.
In Washington, DC, OIG met with officials from the Bureau of Diplomatic Security on EAP



                                               22

                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


guidance and requirements and with officials from the Foreign Service Institute to discuss crisis
management training.
        (U) OIG conducted this evaluation from June 2011 to January 2013 in accordance with
the Quality Standards for Inspection and Evaluation, issued in January 2011 by the Council of
the Inspectors General on Integrity and Efficiency. OIG believes that the evidence obtained
provides a reasonable basis for the findings and conclusions based on the evaluation objective.

(U) Review of Internal Controls

        (U) OIG performed steps to assess the adequacy of internal controls for resources the
embassy maintained for emergencies, including processes for pre-positioning food, water, and
medical supplies in emergency shelters and maintaining, inspecting, and updating inventories of
these supplies. For example, OIG completed an inventory of emergency equipment, rations, and
supplies to determine the extent to which the items were secured and tracked.

(U) Use of Computer-Processed Data

       (U) OIG did not use computer-processed data to conduct this evaluation.




                                                23

                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                                             (U) Appendix B

              (U) Contents of Embassy Kabul Emergency Action Plan
(U) Chapters
      (SBU) 100 - Legal
      (SBU) 200 - Organization
      (SBU) 300 - Consular Services
      (SBU) 400 - Public Affairs
      (SBU) 500 - Medical
      (SBU) 600 - Mission Security
      (SBU) 700 - Crisis Preparedness

(U) Annexes
      (SBU) Annex A - Bomb
      (SBU) Annex B - Fire
      (SBU) Annex C - Civil Disorder
      (SBU) Annex D - Internal Defense
      (SBU) Annex E - Destruction of Sensitive Materials
      (SBU) Annex F - Weapons of Mass Destruction
      (SBU) Annex G - Hostage Taking
      (SBU) Annex H - Hijacking
      (SBU) Annex I - Assistance to U.S. Citizens is a Major Accident or Disaster
      (SBU) Annex J - Assistance to Host Country in a Major Accident or Disaster
      (SBU) Annex K - Drawdown and Evacuation
      (SBU) Annex L - Receipt of Evacuees
      (SBU) Annex M - Regional Reconstruction Team-Erbil
      (SBU) Annex N - Crisis Preparedness for Americans under COM Authority

(U) Appendices
      (SBU) Appendix 1 - Master Contact List
      (SBU) Appendix 2 - Mission Organization for Emergencies
      (SBU) Appendix 3 - Command and Control Locations
      (SBU) Appendix 4 - Assembly and Movement Surveys
      (SBU) Appendix 5 - Medical Services Surveys
      (SBU) Appendix 6 - Logistics and Transportation
      (SBU) Appendix 7 - Communications
      (SBU) Appendix 8 - Unified Command
      (SBU) Appendix 9 - Facility Information




                                            24

                           SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED


                                                                                                           (U) Appendix C
                                                                                   *
                                         (U) Embassy Kabul Response


(U)

(U)                                                               Kabul, Afghanistan

                                                                    February 9, 2013

(U)                 Dear Mr. Geisel;

                    Embassy Kabul's number one priority is the safety and security of COM personnel
(U)                 - a never ending task in this non-permissive environment. As illustrated by the
                    insurgent auacks against major U.S. and Coalition military bases in the past
                    months, it is impossible to provide I 00 percent security for personnel in a war
                    zone. Expecting non-combatant civilians to do this is demanding much - yet the
                    brave and dedicated men and women of Mission Afghanistan do this on a daily
                    basis. They are to be lauded.

                    There have been two direct insurgent attacks against our compound since
(U)                 September 201 I. Because of our professional and robust security program, we
                    quickly brought over I ,000 personnel to safety without incident. This was
                    accomplished in the face of monars, RPGs and concentrated small arms fire over
                    several hours. The emergency drills we conducted in the days leading up to these
                    attacks proved prescient. We have the best RSO Office in the Foreign Service.

                    Towards this end, as a war zone Embassy, we have assets not available to most
(U)                 posts. As outlined in 13 Kabul 59, we have implemented security countermeasures
                    and programs which could become best practices at other contingency zone posts.
                    Ultimately, to do our job and conduct critical national diplomatic outreach in these
                    harsh environments, the USG accepts significant risk to o ur personnel and
                    facilities. We manage that risk in accomplishing our mission.

                    Recommendation I: OIG recommends that Embassy Kabul establish a process to
(U)                 ensure that its Emergency Action Plan, and the resources available to implement it,
                    reflect the changing size and threat level at the post, including adjusting the
                    amount of supplies and equipment listed in the Emergency Action Plan and
                    stocked at the embassy based on the size of the embassy population, the length of
                    time that the embassy could experience an emergency, and the severity of that
                    emergency.

                          Embassy Kabul Response: RSO Kabul has personnel dedicated to
(U)                       emergency planning which includes updating the Emergency Action Plan.
                          This update process is continuous and RSO had already begun a




 *
     [OIG completed portion marking of Embassy Kabul’s response per 12 FAM 541.]


                                                             25

                                       SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




              concentrated effort in summer 2012 to adjust the amount of supplies and
              equipment and to update the appropriate sections of the plan.

(U)     Recommendation 2: OIG recommends that Embassy Kabul establish, update, and
        periodically inspect the inventory of emergency supplies and equipment for each
        emergency shelter within the embassy compound to ensure that supplies and
        equipment on-site reflect the amounts noted in the Emergency Action Plan and
        remain useable during emergencies.

(U)           Embassy Kabul Response: In the spring of2012, RSO Kabul began periodic
              inspections of emergency supplies and equipment to include supplemental
              duck and cover bunker locations intended for short-term use. During the
              summer of2012, RSO and Management began an initiative to better identify
              and secure supply containers.

             Post will continue to conduct complete and thorough reviews of the
(SBU)        emergency food and shelter program. GSO will work in partnership with the
             post Health Unit, Regional Security Office, and the DOD Veterinarian Unit
             to develop and implement a comprehensive program to ensure food, water
             and medical supplies are adequate in accordance with the EAP and embassy
             population and refreshed as required.

(SBU)
                [Redacted] (b) (5)




(SBU)                         [Redacted] (b) (5)                   [Redacted] (b) (5)

                                               RSO is updating
             pertinent details of these structures in the Emergency Action Plan.

(SBU)        RSO sends frequent reminders of the locations of these structures in security
             notices to the embassy community and utilizes them during emergency drills
             - including maps. These structures are currently under review as part of
             new provisions in 12 FAH-5 H-460 "Safe Havens, Safe Areas, and




                                               26

                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




             Compound Emergency Sanctuaries". Supplemental duck and cover bunkers,
             intended for very short-term occupation in the event of an Annex D
             emergency, remain in place as well.
(SBU)        Additionally, as a result of the September 13, 2011 attack on the U.S.
             Embassy compound, RSO submitted a request for a phased physical security
             upgrade plan.      RSO requested $42.6 million in funding for the
             implementation of sidewall and overhead protection for residential, office
             and dining facilities at the U.S. Embassy, Camp Alvarado and Camp
             Sullivan. The request was submitted in February of 20 12 and funding in the
             amount of $27.6 million dollars for upgrades at the Embassy and Camp
             Alvarado was received in early September of 2012.

             Funding for upgrades at Camp Sullivan will be provided in FY13. The
(SBU)
             funding was transferred from DS/Physical Security Programs to OBO via a
             Memorandum of Agreement that same month. OBO is working on the final
             scope of work for the physical security upgrades which will include
             overhead and sidewall protection for residential and office space on the East
             side compound. (See 12 KABUL 21 0 and 13 Kabul 59 for additional
             information).

(SBU)   Recommendation 4: OIG recommends that Embassy Kabul provide all embassy
        staff with radios for use in responding to emergencies.

             Embassy Kabul Response: (SBU) Working with TRM and Bureau, post has
(SBU)        greatly expanded the -
                                   [Redacted] (b) (5)
                                                communications infrastructure on compound. In
             September 2012 four additional repeaters were installed in Staff Diplomatic
             Apartment A for the E&E and Local Guard Force networks. Also in
             September 2012, IRM began issuing-[Redacted] (b) (5)to all incoming Chief of Mission
             (COM) staff at the newcomer briefings, held twice weekly. For staff that
             arrived prior to that                       Notice I 2-452 was sent out directing
             all Embassy staff to [Redacted] (b) (5)                    IRM has been able to meet
             all    uests thus       [Redacted] (b) (5)



(SBU)   Recommendation 5: OIG recommends that Embassy Kabul establish or acquire a
        capacity [Redacted] (b) (5)




                                                  27

                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




(SBU)         Embassy Kabul Response: Recommendation 5 requires coordination with
                                                                                            [Redacted] (b) (5)
              OBO. Post believes that this recommendation contradicts
                 dance [Redacted] (b) (5)
                              We therefore refer the           to                  to determine a
                              for any policy and resource changes that might be required.
              080/0PS/FIR has conducted previous inspections of Kabul and knows the
              conditions and response capabilities of the ISAF base. We also note that
              ISAF currently provides a -[Redacted] (b) (5) capability that is greater than would
              be the case at any other overseas post in the developing world. However, in
              response, we are taking a three pronged approach:
                  I. Post is conferring with 080/0PS/FIR on the proper path forward to
                      resolve tl1e issue.
                 2. We are inquiring of our O&M service provider, Pacific Architects and
                      Engineers, on their approximate costs to assume -[Redacted] (b) (5)
                     -             from ISAF if/when the departure of ISAF personnel is
                     announced. We wiiJ also determine the extent of Afghan -[Redacted] (b) (5)
                     capabilities.
                 3. We are checking on our c~h ISAF, to better
                     determine their        'ties for-   [Redacted]
                                                                -(b)    - (5)



(U)     Recommendation 6: OIG recommends that Embassy Kabul establish formal
        agreements on the roles and responsibilities of non-Department of State law
        enforcement agencies during events requiring implementation of the Emergency
        Action Plan.

(U)          Embassy Kabul Response: Since early 2012, RSO has involved and
             received participation from Department of State and non-Department of
             State law enforcement agencies in compound familiarization tours,
             coordination meetings, emergency drills, and major events. RSO also
             drafted an information memo titled "The Role of the Internal Defense Team
             and Other Federal Law Enforcement Personnel in the Event of an Internal
             Defense Situation" that formal ly describes the roles and responsibilities of
             ail law enforcement agencies during emergencies. Embassy representatives
             from the following agencies have cleared the information memorandum:
             Drug Enforcement Agency, Department of Homeland Security, U.S.
             Marshals Service, Department of Justice, Federal Bureau of Investigation,
             Department of State Office ofrnspector General, USAID Office oflnspector
             General, and the Special Inspector General for Afghanistan Reconstruction.




                                                       28

                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED




(SBU)   Recommendation 7: OIG recommends that Embassy Kabul establish and
        periodically update an inventory of all classified and sensitive materials that
        require destruction during an emergency that requires implementing Annex E of
        the Emergency Action Plan.
(SBU)         Embassy Kabul Response: As part of identifying the full inventory of
              classified and sensitive materials that require destruction during an
              emergency, the Embassy's Information Programs Center (IPC) maintains a
              destruction Jist for all COMSEC items. This list is updated periodically, per
              Annex E of the Emergency Action Plan. Management also routinely sends
              out notices to COM personnel regarding Records Management to include
              handling of classified material and appropriate destruction methods. Post
              continues to work with all embassy agencies and sections to ensure that
              updated inventories of all classified and Sensitive but Unclassified materials
              as defined in Annex E and ensure they are included in destruction planning.

(U)     Recommendation 8: OIG recommends that the Bureau of Diplomatic Security
        establish a process to validate the adequacy of Emergency Action Plans at high-
        threat posts, such as Embassy Kabul, by reviewing and assessing the resources
        listed in the plans for addressing each type of Emergency Action Plan emergency.
(U)           No post response. DS Headquarters will address this recommendation.

(SBU)   Recommendation 9: OIG recommends that Embassy Kabul and Consulate Herat
        finalize and issue an Emergency Action Plan and ensure that consulate personnel
        are trained on the plan before the drawdown and departure of the International
        Security Assistance Force from Herat.

(SBU)        Embassy Kabul Response: The U.S. Consulate in Herat opened its doors on
             March II, 2012. The Consulate's Emergency Action Plan was I00 percent
             completed and published on December I 8, 2012. Newly established Posts
             arc generally given about one year to complete and publish an Emergency
             Action Plan since many items are unknown until occupancy. Herat's was
             published in nine months. Herat completed the bulk of draft plans very early
             in the process (two to three months after opening). As discussed with the
             OlG team, the existence of draft plans does not constitute an absence of
             plans. Herat's Emergency Action Plan was drafted but awaiting fmal
             approvals for the remainder of the nine month period.




                                                29

                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED




(SBU)   Recommendation 10: OIG recommends that Embassy Kabul seek a formal
        agreement with the International Security Assistance Force commanders who
        manage the Qala-e-Naw Provincial Reconstruction Team to ensure that Chief of
        Mission personnel working in Qala-e-Naw are supported in the event of an
        emergency until the Provincial Reconstruction Team's operations are ended.

(SBU)        Embassy Kabul Response: The Provincial Reconstruction Team (PRT) in
             question is currently scheduled for closure in June 2013. Chief of Mission
             personnel would typically depart the PRT 30 to 60 days prior to closure. At
             this juncture, post does not find value or practical benefit in engaging the
             Spanish government in MOU negotiations. This leaves the option of
             removing COM personnel from the PRT earlier than planned. However,
             post finds that the continued presence of COM personnel at PRT Qala-e-
             Naw remains of sufficient national importance from a policy perspective to
             warrant a continued presence until the scheduled closure.
(U)
                                                         Sincerely,     c.. c.__
                                                         J•m~.        6
                                                                  Cunningh:;:)
                                                         Chief of Mission

(U)          The Honorable
               Harold W. Geisel
                  Deputy Inspector General
                        U.S. Department of State and Broadcasting Board of Governors
                        Office of the Inspector General




                                               30

                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



(U) Major Contributors to This Report
(U) Carol N. Gorman, Deputy Assistant Inspector General
Division of Middle East Region Operations
Office of Audits

(U) Sam Bernet, Director
Division of Middle East Region Operations
Office of Audits

(U) J. Addison Ricks, Audit Manager
Division of Middle East Region Operations
Office of Audits

(U) Tony J. Eason, Auditor
Division of Middle East Region Operations
Office of Audits




                                            31

                           SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
